No. 20-177
IN THE

Supreme Court of the United States
ALLY FINANCIAL INC.,
Petitioner,
v.
ALBERTA HASKINS, ET AL.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
SUPREME COURT OF MISSOURI

EMERGENCY JOINT MOTION TO DEFER CONSIDERATION
OF THE PETITION FOR A WRIT OF CERTIORARI
Petitioner and respondents jointly move to defer consideration of the petition for
a writ of certiorari, currently scheduled for consideration at the Court’s conference of
January 8, 2021. The parties have executed a Memorandum of Understanding to settle
this case; a formal settlement agreement, however, must be finalized and approved by
the state court. See Mo. R. Civ. P. 52.08(e).
As part of the Memorandum of Understanding, the parties agreed to file a joint
motion with this Court requesting that consideration of the petition for a writ of
certiorari be deferred pending entry of a final and non-appealable order approving the
formal settlement agreement by the state court. If the settlement agreement is
finalized and approved by the state court in a final and non-appealable order, petitioner
will file a motion to dismiss under this Court’s Rule 46.

The motion should be granted because deferring consideration will avoid
disruption of the settlement process and will prevent unnecessary expenditure of
judicial resources. This Court has granted similar motions in analogous circumstances.

See, e.g., Peterson v. Linear Controls, Inc., 141 S. Ct. 83 (2020) (mem.); Petroleo
Brasileiro S.A--Petrobms v. Universities Superannuation Scheme Lf.d., 138 S. Ct. 754
(2018) (mem.); Dow Chem. Co. v. Indus. Polymers, Inc., 136 S. Ct. 1400 (2016) (mem.).
Respectfully submitted.

DEEPAKGuPTA

Counsel of Record

JONATHAN E. TAYLOR
GUPTA WESSLER PLLC

1900 L St., N.W., Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com

JESSE B. ROCHMAN
MARTIN L. DAESCH
CRAIG W. RICHARDS
ONDERLAW, LLC
110 East Lockwood Ave.
St. Louis, MO 63119
(314) 227-7695
rochman@onderlaw.com

Counsel for Respondents

JANUARY 2021

;;;i:/Rz)a£~~

PAUL R.Q. WOLFSON

Counsel of Record

DREW VAN DENOYER
ALEKSANDR SVERDLIK
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., N.W.
Washington, D.C. 20006
(202) 663-6390
paul.wolfson@wilmerhale.com

Counsel for Petitioner

